Audit Report




OIG-09-018
Management Letter for Fiscal Year 2008 Audit of the
Financial Management Service’s Schedule of Non-Entity Assets,
Non-Entity Costs and Custodial Revenue

December 18, 2008



Office of
Inspector General
DEPARTMENT OF THE TREASURY
This report has been reviewed for public dissemination by the Office of Counsel
to the Inspector General. Information requiring protection from public
dissemination has been redacted from this report in accordance with the
Freedom of Information Act, 5 U.S.C. Section 552.
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                             December 18, 2008


             MEMORANDUM FOR JUDITH R. TILLMAN, COMMISSIONER
                            FINANCIAL MANAGEMENT SERVICE

             FROM:                 Michael Fitzgerald /s/
                                   Director, Financial Audits

             SUBJECT:              Management Letter for Fiscal Year 2008 Audit of the
                                   Financial Management Service’s Schedule of Non-Entity
                                   Assets, Non-Entity Costs and Custodial Revenue


             I am pleased to transmit the attached management letter in connection with the
             audit of the Financial Management Service’s (FMS) Fiscal Year (FY) 2008 Schedule
             of Non-Entity Assets, Non-Entity Costs and Custodial Revenue. Under a contract
             monitored by the Office of Inspector General, KPMG LLP, an independent certified
             public accounting firm, performed an audit of FMS’s Schedule of Non-Entity
             Assets, Non-Entity Costs and Custodial Revenue for FY 2008. The contract
             required that the audit be performed in accordance with generally accepted
             government auditing standards; applicable provisions of Office of Management and
             Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements;
             and the GAO/PCIE Financial Audit Manual.

             As part of its audit, KPMG LLP issued and is responsible for the accompanying
             management letter that discusses certain matters involving internal control and
             other operational matters that were identified during the audit but were not
             required to be included in the auditors’ reports.

             This letter contains sensitive information about FMS’s information technology
             policies and practices, such as thresholds and tolerances, which requires protection
             from public dissemination. This information was redacted in our report for public
             dissemination in accordance with Exemption 2 of the Freedom of Information Act,
             5 USC § 552(b)(2). Recipients of this letter should not show or release its contents
             for purposes other than official review to prevent publication or other improper
             disclosure of the information it contains.
Page 2

In connection with the contract, we reviewed KPMG LLP’s letter and related
documentation and inquired of its representatives. Our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:   Kenneth E. Carfine
      Fiscal Assistant Secretary
U.S. DEPARTMENT OF THE TREASURY
FINANCIAL MANAGEMENT SERVICE
         FISCAL YEAR 2008
      Treasury Managed Accounts

         Management Letter (REDACTED VERSION)

         November 17, 2008
                            U.S. DEPARTMENT OF THE TREASURY
                                     Treasury Managed Accounts
                                          Fiscal Year 2008
                                         Management Letter



                                          Table of Contents

                                                                                     Page

Transmittal Letter                                                                      1

Exhibit I – Current Year Comments and Recommendations:
       1. Miscalculation of a Foreign Currency Payment in the Judgment Fund,
              Contract Disputes Accounts Receivable Balances                            2
      2. Non-Compliance with Billing Letter Requirements Contained in the Contract
             Disputes Act and No FEAR Act                                               3
      3. FASDAS AIX Operating System Password Age Not in Compliance
            with the AIX Security Standards Manual                                      6
Exhibit II – Status of Prior Year Comments and Recommendations                          7
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




November 17, 2008

Inspector General, U.S. Department of the Treasury and
Commissioner of the Financial Management Service:

We have audited the Schedule of Non-Entity Assets as of September 30, 2008 and Non-Entity Costs and
Custodial Revenue (collectively, Treasury Managed Accounts (TMA)) for the year then ended (hereinafter
referred to as the “Schedule”) of the U.S. Department of the Treasury’s Financial Management Service
(FMS), and have issued our report thereon dated November 17, 2008. The Schedule as of September 30,
2007 was audited by other auditors whose report thereon dated November 8, 2007, expressed an
unqualified opinion on that Schedule. In planning and performing our audit of FMS’s Schedule, in
accordance with auditing standards generally accepted in the United States of America, we considered
internal control over financial reporting (internal control) as a basis for designing our auditing procedures
for the purpose of expressing our opinion on the Schedule and not for the purpose of expressing an opinion
on the effectiveness of FMS’s internal control relating to TMA. Accordingly, we do not express an opinion
on the effectiveness of FMS’s internal control relating to TMA. We have not considered internal control
since the date of our report.


During our audit we noted certain matters involving internal control and other operational matters that we
present for your consideration. These comments and recommendations, all of which have been discussed
with the appropriate members of management, are intended to improve internal control or result in other
operating efficiencies and are summarized in Exhibit I (Current Year Comments and Recommendations)
and Exhibit II (Status of Prior Year Comments and Recommendations).

We noted other matters involving internal control and its operation relating to information technology
general controls that could affect the data used to prepare FMS’s Schedule. These matters are detailed in a
separate management letter issued in conjunction with the FY2008 audit of FMS’s Schedule of Non-Entity
Government-wide Cash, the title of which is “User System Access is not being removed in a timely manner
upon separation of employment from FMS”.

Our audit procedures are designed primarily to enable us to form an opinion on the Schedule described
above, and therefore may not bring to light all deficiencies in policies, procedures, or internal control that
may exist. We aim, however, to use our knowledge of FMS relating to TMA gained during our work to
make comments and suggestions that we hope will be useful to you. We would be pleased to discuss these
comments and recommendations with you at any time.

FMS’s responses to our comments and recommendations have not been subjected to the auditing
procedures applied in the audit of the Schedule and, accordingly, we express no opinion on them.

This communication is intended solely for the information and use of FMS management, the U.S.
Department of the Treasury’s Office of Inspector General, the Office of Management and Budget, the
Government Accountability Office, and the U.S. Congress, and is not intended to be, and should not be,
used by anyone other than these specified parties.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                                                                                                     Exhibit I

                                      Financial Management Service
                                       Treasury Managed Accounts

                            Current Year Comments and Recommendations

                                            September 30, 2008


1. Miscalculation of a Foreign Currency Payment in the Judgment Fund, Contract Disputes
   Accounts Receivable Balances

During our testwork over 32 Contract Disputes Act (CDA) accounts receivable balances, we identified 1
CDA accounts receivable balance where the amount certified for disbursement from the Judgment Fund
was incorrect due to a miscalculation of the foreign currency conversion.

We noted the following causes of this miscalculation and resulting overpayment:

    •   The Certifying Officer (CO) within the Judgment Fund Branch did not review the Judgment Fund
        Internet Claims System (JFICS) Transfer Report prior to certifying the Voucher and Schedule of
        Payment form, SF 1166a, because it was not provided with the SF 1166a.
    •   Line 1 of the Judgment Fund Voucher for Payment (FMS Form 197) did not include the
        disbursement amount in Euros; therefore, FMS should have requested a revised FMS Form 197
        with the correct payment amount in Euros from the requesting agency.

GAO Standards for Internal Control in the Federal Government states, “Transactions and other significant
events should be authorized and executed only by persons acting within the scope of their authority. This is
the principal means of assuring that only valid transactions to exchange, transfer, use, or commit resources
and other events are initiated or entered.”

Treasury Financial Manual Volume I, Part 6, Chapter 3100, section 3135, states, “FMS will return, without
action, requests for certifications that do not contain all required documents, information or certifications.”

FMS had initially overstated its Intra-governmental Accounts Receivable, Net balance, by $126,811 and
had not requested reimbursement of the $126,811 overpayment from the entity paid. However, the
requesting agency subsequently paid this accounts receivable amount to FMS in July 2008 for the full
amount of $387,671. Therefore, as of September 30, 2008, FMS had understated its With the Public,
Accounts Receivable, Net balance; overstated its Non-Entity Costs – Judgments; overstated its Recoveries
from Federal Agencies for Settlement of Claims from Contract Disputes; and understated Accounts
Payable-Federal, all by $126,811.

Recommendations:

We recommend:
   1. FMS develop and implement procedures to have the Preparer/Data Entry Operator (DEO) review,
       reconcile and sign off as evidence of their review of the Voucher and Schedule of Payment form,
       SF1166a, and JFICS Transfer Report prior to the information being provided to the CO for
       approval. In addition, the CO should review and reconcile both the SF 1166a and the JFICS
       Transfer Report and document their review prior to certification of the payment.

                                                      2
                                                                                                Exhibit I

                                    Financial Management Service
                                     Treasury Managed Accounts

                           Current Year Comments and Recommendations

                                          September 30, 2008


    2. FMS develop and implement procedures to have the Accountant responsible for recording the
       CDA accounts receivable review the voucher package from the Judgment Fund Branch for
       accuracy and completeness prior to recording the related accounts receivable in the general ledger.
    3. FMS request reimbursement of the $126,811 overpayment from the entity paid.
    4. FMS:
           o Establish a With the Public, Accounts Receivable, and an Accounts Payable-Federal, both
              for $126,811, and
           o Reduce its Non-Entity Costs - Judgments, and Recoveries from Federal Agencies for
              Settlement of Claims from Contract Disputes, both for $126,811.

Management’s Response: Concur

FMS will develop and implement procedures to have the Preparer/DEO review, reconcile and sign off as
evidence of their review the Voucher and Schedule of Payment form, SF1166a. Due date: January 15,
2009.

FMS will develop and implement procedure to attach the JFICS Transfer Report for review by the
Certifying Officer prior to approving the Voucher and Schedule of Payment, SF166a. Due date: January
15, 2009.

FMS will develop and implement procedure to have the Accountant responsible for recording the CDA
accounts receivable review the voucher package from the Judgment Fund Branch for accuracy and
completeness prior to recording the related accounts receivable in the general ledger. Due date: February
15, 2009.

Written request will be made of the entity paid for return of funds by November 14, 2008. If funds are not
returned to FMS within 30 business days, FMS will send a follow up letter requesting return of the funds.
Finally, if no payment or other response is received within the next 30 days, the outstanding debt will be
referred to the Treasury Offset Program (TOP).

Establish an accounts receivable of $126,811 with the Public by November 30, 2008.

2. Non-Compliance with Billing Letter Requirements Contained in the Contract Disputes Act and No
   FEAR Act

During our testing of compliance with the Contract Dispute Act and No FEAR Act, KPMG noted the
following:
    •   For 1 out of 32 CDA accounts receivable transactions, 15-day billing letters were not provided to
        KPMG for testing.


                                                    3
                                                                                                   Exhibit I

                                     Financial Management Service
                                      Treasury Managed Accounts

                            Current Year Comments and Recommendations

                                           September 30, 2008


    •   For 1 out of 32 CDA accounts receivable transactions, timeliness of 45-day letters could not be
        determined because there was no initial letter within 15 days.
    •   For 1 out of 32 CDA accounts receivable transactions, timeliness of 60-day letters could not be
        determined because there was no initial letter within 15 days.
    •   For 9 out of 32 CDA accounts receivable transactions, 15 day billing letters were late.
    •   For 10 out of 32 CDA accounts receivable transactions, 45-day letters were not sent in a timely
        manner.
    •   For 19 out of 32 CDA accounts receivable transactions, 60-day letters were late.
    •   For 1 out of 34 No FEAR accounts receivable transactions, 15-day billing letters did not have a
        date.
    •   For 14 out of 34 No FEAR account receivable transactions, 15 day billing letters were late.
    •   1 out of 34 No FEAR accounts receivable transactions was recorded in FASDAS prior to
        disbursement from the Judgment Fund.
We noted the following causes:

    •   The Judgment Fund Branch procedures related to CDA and No FEAR do not document how the
        timeliness of billing letters is to be monitored and there is no requirement for a supervisory review
        to be performed to ensure compliance with CDA and No FEAR billing letter requirements.
    •   FMS has no written procedures in place to require a review over the recording of No FEAR
        Accounts Receivable to ensure appropriate dates are utilized for the recording of accounts
        receivable.

FMS is not in compliance with the following:

Contract Disputes Act
   • Treasury Financial Manual Volume I, Part 6 Chapter 3100, section 3150.10, states, “FMS will
       make demands for the reimbursement in writing to the debtor agency 15 days from the date of
       payment to the claimant. If the responsible agency fails to contact FMS within 30 days of initial
       contact letter, FMS will send a follow up letter to the responsible agency [45-day billing letter]. If
       the agency fails to respond within 60 days of the initial contact, FMS will send a letter to the
       responsible agency’s Chief Financial Officer CFO [60-day letter].”

No FEAR Act
   • 5 CFR 724.104 states:
     “§ 724.104 Procedures
       (a) The procedures that agencies must use to reimburse the Judgment Fund are those prescribed by
                                                     4
                                                                                                   Exhibit I

                                     Financial Management Service
                                      Treasury Managed Accounts

                            Current Year Comments and Recommendations

                                           September 30, 2008


        the Financial Management Service (FMS), the Department of the Treasury, in Chapter 3100 of the
        Treasury Financial Manual. All reimbursements to the Judgment Fund covered by the No FEAR
        Act are expected to be fully collectible from the agency. FMS will provide written notice to the
        agency's Chief Financial Officer within 15 business days after payment from the Judgment Fund.
        (b) Within 45 business days of receiving the FMS notice, agencies must reimburse the Judgment
        Fund or contact FMS to make arrangements in writing for reimbursement.
    •   Treasury Financial Manual Volume I, Part 6 Chapter 3100, section 3150.30, states, “FMS must
        report all receivables arising from certification of Fund Payments.”

In addition, by FMS not sending the notifications on a timely basis, the related timeliness of
reimbursements from the agencies may be effected. Lastly, recording No FEAR accounts receivable
transactions prior to the related disbursement from the Judgment Fund may misstate TMA accounts
receivable.

Recommendations:

We recommend:
   1. FMS develop and implement procedures for the Judgment Fund Branch related to CDA and No
       FEAR to require the monitoring of the timeliness of billing letters, and to require a supervisory
       review be performed periodically to ensure compliance with CDA and No FEAR billing letter
       requirements.
   2. FMS develop and implement procedures to require the System Accountant responsible for
       recording the CDA accounts receivable review the voucher package from the Judgment Fund
       Branch for accuracy and completeness, ensuring that the disbursement had been made prior to
       recording the related accounts receivable in the general ledger.

Management’s Response: Concur

FMS will develop and implement procedures for the Judgment Fund Branch related to CDA and No FEAR
Act cases to require the monitoring of the timeliness of billing letters, and to require a supervisory review
be performed periodically to ensure compliance with CDA and No FEAR billing letter requirements. Due
date: February 27, 2009

FMS will develop and implement procedures to perform periodically a review and spot check to ensure
appropriate dates are entered correctly for the computation of the accounts receivable dates. Due date:
February 27, 2009




                                                     5
                                                                                                Exhibit I

                                    Financial Management Service
                                     Treasury Managed Accounts

                           Current Year Comments and Recommendations

                                          September 30, 2008


3. FASDAS AIX Operating System Password Age Not in Compliance with the AIX Security
   Standards Manual

The password expiration settings for three (3) user accounts with remote access to the Financial
Accounting and Services Division Accounting System (FASDAS) IBM Advanced Interactive Executive
(AIX) operating system have not been configured in accordance with the FMS AIX Security Standards
Manual. Specifically, in the IBM AIX operating system, the MAXAGE parameter is the maximum number
of weeks that can pass before a password must be changed. The MAXEXPIRED parameter is the
maximum number of weeks beyond MAXAGE that a password can be changed before administrative
action is required to change the password. When combined, these parameters determine a user account’s
password age. For the aforementioned three user accounts, the MAXAGE and MAXEXPIRED parameters
have been set to ************, respectively. This created a maximum password age of **************
****, which is ****** longer then what the AIX Security Standard Manual requires. According to FMS
management, due to an oversight in the implementation of the updated AIX Security Standards, the
MAXAGE and MAXEXPIRED parameters were incorrectly configured for these three (3) user accounts.

The AIX Security Standards Version 3.2, effective 2/19/08, requires the MAXAGE parameter to be set to
******** and the MAXEXPIRED parameter to be set to ***********, for a maximum password age
totaling *******, or *******. In addition, the FMS IT Security Standards Manual requires passwords to be
changed every 90 days. User accounts with passwords that do not expire in a timely manner could be
exposed to greater misuse and abuse than accounts with passwords changed in a more frequent manner.
[*- information REDACTED - FOIA EXEMPTION 2, 5 U.S.C. §552(b)(2)]

Recommendation:

We recommend FMS management configure the MAXAGE and MAXEXPIRED parameters of the three
(3) accounts identified to be in accordance with the requirements outlined in the FMS AIX Security
Standards Manual.

Management’s Response: Concur

FMS completed correct configuration of the MAXAGE and MAXEXPIRED parameters for the three (3)
accounts identified.

Additionally, we are implementing a new user provisioning tool that ensures users are provisioned with the
requirements outlined in the FMS AIX Standards document.




                                                    6
                                                                          Exhibit II

                           Financial Management Service
                            Treasury Managed Accounts

                             Status of Prior Year
                         Comments and Recommendations

                                September 30, 2008



  FMS                                                           Action        Action in
Finding#                        Findings                       Complete       Progress
   1       The FASDAS UNIX password setting is not in             X
           compliance with FMS IT Security or AIX standards.




                                        7
